                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        Controls Over State
                        Underground Storage Tank
                        Inspection Programs in EPA
                        Regions Generally Effective
                        Report No. 12-P-0289               February 15, 2012




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:                               Gerry Snyder
                                                   Tim Roach
                                                   Jayne Lilienfeld-Jones
                                                   Fred Light
                                                   Dan Engelberg




Abbreviations

EPA           U.S. Environmental Protection Agency
MOA           Memorandum of Agreement
OIG           Office of Inspector General
OSFM          Office of the State Fire Marshal
OSWER         Office of Solid Waste and Emergency Response
OUST          Office of Underground Storage Tanks
UST           Underground Storage Tank


Cover photo: EPA UST Enforcement Officer inspecting an underground storage tank.
             (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                               12-P-0289
                                                                                                     February 15, 2012
                       Office of Inspector General


                       At a Glance

Why We Did This Review                 Controls Over State Underground Storage
The Office of Inspector General
                                       Tank Inspection Programs in EPA Regions
sought to determine how the U.S.       Generally Effective
Environmental Protection Agency
(EPA) ensures that the quality of       What We Found
compliance inspections at
underground storage tanks (USTs)       We determined that EPA regions have management controls to verify the
is protective of public health and     quality of state UST inspections. All three regions where we conducted our
the environment. Preventing            review had annually reviewed UST inspection programs to verify compliance
releases through regular tank          with requirements. Further, two of the three regions we reviewed conducted
inspections and maintenance is         more extensive annual reviews and made recommendations to improve state
key to protecting public health and    UST inspection programs.
the environment. According to the
Office of Underground Storage          While we did not find any major deficiencies in the administration of the state
Tanks (OUST), the greatest             UST inspection programs or regional oversight activities, we have one
potential threat from a leaking        concern about EPA’s oversight of state UST inspection programs. The
UST is contamination of                memoranda of agreement (MOAs) between regions and the state UST
groundwater, the source of             programs either do not exist or do not reflect changes resulting from the
drinking water for nearly half of      Energy Policy Act of 2005. An MOA is an important management control
all Americans.                         because it defines the roles and responsibilities between an EPA region and a
                                       state.
Background
                                        What We Recommend
There are nearly 600,000 USTs in
the United States. EPA annually        We recommend that EPA and states enter into MOAs that reflect program
grants $34.5 million to states,        changes from the 2005 Energy Policy Act and address oversight of
tribes, and territories to implement   municipalities conducting inspections. The Office of Solid Waste and
UST inspection and compliance          Emergency Response (OSWER) agreed with our recommendation and we
programs. All states determine         agree that its planned actions meet the intent of the recommendation. Because
compliance with UST regulations        OSWER did not provide a planned completion date for the corrective action,
through compliance inspections.        we consider the recommendation unresolved.



For further information, contact our
Office of Congressional and Public
Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20120215-12-P-0289.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                        February 15, 2012

MEMORANDUM

SUBJECT:	 Controls Over State Underground Storage Tank Inspection Programs
          in EPA Regions Generally Effective
          Report No. 12-P-0289


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Mathy Stanislaus
               Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Dan Engelberg,
Director of Water and Enforcement Issues, at (202) 566-0830 or engelberg.dan@epa.gov.
Controls Over State Underground Storage Tank                                                                                 12-P-0289
Inspection Programs in EPA Regions Generally Effective




                                      Table of Contents
   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          3


           Regional Controls Over State UST Inspection Programs Are

                 Generally Effective .....................................................................................            3

           Lack of Up-to-Date MOAs Are a Management Concern for

                 Oversight of State UST Inspection Programs ...........................................                               4


   Conclusion...................................................................................................................      5


   Recommendation ........................................................................................................            5


   Agency Response and OIG Evaluation ....................................................................                            5


   Status of Recommendations and Potential Monetary Benefits..............................                                            6




Appendices
   A       Agency Comments on Draft Report and OIG Responses ..............................                                           7


   B       Distribution ........................................................................................................     11

Purpose
                 The Office of Inspector General (OIG) evaluated the U.S. Environmental
                 Protection Agency’s (EPA’s) management controls1 over states’ underground
                 storage tank (UST) inspections. Our objective was to determine how EPA ensures
                 that the quality of compliance inspections at underground storage tanks is
                 protective of public health and the environment.

Background
                 There are nearly 600,000 USTs in the United States. EPA defines an UST system
                 as a tank and any underground piping connected to the tank that has at least
                 10 percent of its combined volume underground. Federal UST regulations apply
                 to only underground tanks and piping that store either petroleum or certain
                 hazardous substances. Preventing releases through regular tank inspections and
                 maintenance is key to protecting public health and the environment. According to
                 the Office of Underground Storage Tanks (OUST), the greatest potential threat
                 from a leaking UST is contamination of groundwater, the source of drinking
                 water for nearly half of all Americans.

                 In fiscal year 2010, OUST issued grants totaling $34.5 million to states, tribes,
                 and territories to implement UST inspection and compliance programs. These
                 grants also help grant recipients comply with the 2005 Energy Policy Act. This
                 Act includes provisions intended to prevent UST releases. It requires states to
                 inspect UST facilities (e.g., gas stations) at least once every 3 years; conduct
                 operator training; obtain delivery prohibition authority; and to either have
                 secondary containment systems for USTs within 1,000 feet of any existing
                 community water system or any existing potable drinking water well, or financial
                 responsibility for manufacturers and installers. OUST also supports UST
                 inspection programs by publishing grant guidelines to help states comply with
                 provisions of the 2005 Energy Policy Act and by issuing semiannual performance
                 reports. 2

                 EPA regions approve states to administer and enforce a state program in lieu of a
                 federal program under Subtitle I of the Resource Conservation and Recovery Act
                 if those state programs are at least as stringent as federal regulations. Not all states
                 have obtained this approval and states without it still implement an UST
                 inspection program. All states, including those without program approval, receive
                 federal grants to implement UST inspection programs.



1
  Office of Management and Budget’s Circular A-123 directs government agencies to operate programs using
adequate management controls to ensure effective program operation. Management controls involve planning,
oversight, and reporting systems.
2
  Visit http://www.epa.gov/oust/cat/camarchv.htm to see the UST performance reports.


12-P-0289                                                                                                   1
                 EPA has approved 37 states plus the District of Columbia and the Commonwealth
                 of Puerto Rico to administer UST inspection and enforcement programs. According
                 to OUST, once a state program is approved, the state takes the lead role in UST
                 program enforcement. Under federal regulations, states and territories with an
                 approved UST inspection program must also have a memorandum of agreement
                 (MOA) with EPA that outlines EPA and state roles and responsibilities.

                 All states3 determine compliance with UST regulations through compliance
                 inspections, regardless of whether a state has an approved program. EPA regional
                 staff members conduct inspections on tribal lands and sometimes assist states with
                 compliance inspections.

                 States go about conducting inspections in different ways. The majority rely solely
                 on state employees. Some use a combination of state and local government staff,
                 while others contract out inspections or supplement their inspections with EPA
                 staff or EPA contract inspectors. A small number of states allow UST owners to
                 hire certified third-party contractors to do their compliance inspections.
                 According to OUST, 33 states use state employees; 9 states supplement state
                 employees with city, county, or municipal employees; 7 states contract-out some
                 or all of the inspection function; and 7 states use third-party inspection programs.
                 EPA defines a third-party inspection program as a state program in which state-
                 approved third-party inspectors are paid by the owner or operator of an
                 underground storage tank to perform an on-site inspection. EPA guidelines affirm
                 that the results of these inspections must be reviewed by state UST enforcement
                 personnel to determine compliance with regulations.

Scope and Methodology
                 We reviewed applicable sections of the 2005 Energy Policy Act, the Office of Solid
                 Waste and Emergency Response’s (OSWER’s) 2011 and 2012 National Program
                 Managers Guidance, regulations governing USTs, regional/state MOAs, and EPA
                 performance reviews of state UST inspection programs. We reviewed regional
                 oversight of state UST inspection programs in Regions 5, 7, and 8. This review
                 included an analysis of the MOAs between the regions and states, where applicable
                 (11 out of 16 states have MOAs; the other 5 do not). We also interviewed staff and
                 managers from OUST and Regions 5, 7, and 8; and UST managers from Illinois,
                 Minnesota, and Ohio (all in Region 5). We selected these regions because the states
                 employ differing approaches to implementing UST inspection programs. Since we
                 did not proceed into field work, we did not interview UST program officials in any
                 of the states in EPA Regions 7 or 8.

                 We conducted our review from July 2011 to November 2011 in accordance with
                 generally accepted government auditing standards. Those standards require that
                 we plan and perform our review to obtain sufficient, appropriate evidence to
3
 For the purpose of implementing the UST Program, OUST uses the designation of state to include all 50 states, the
District of Columbia, and U.S. territories.

12-P-0289                                                                                                     2
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

Results of Review
            We determined that EPA regions have management controls to verify the quality
            of state UST inspections. Regions evaluate state UST programs, and have taken
            additional steps to recommend improvements to state UST programs. While we
            did not find any major deficiencies in the administration of the state UST
            inspection programs or regional oversight activities, we have one concern about
            EPA’s oversight of state UST inspection programs. The MOAs between regions
            and the state UST programs do not exist or do not reflect changes resulting from
            the Energy Policy Act of 2005. An MOA is an important management control
            because it defines the roles and responsibilities between an EPA region and a state
            for all inspections conducted by state and municipal governments.

            Regional Controls Over State UST Inspection Programs Are
            Generally Effective

            Regions evaluate state UST inspection programs to ensure that the states conduct
            quality compliance inspections. All three regions annually reviewed UST
            inspection programs and grants to verify compliance with the 2005 Energy Policy
            Act requirements. Regions 5 and 7 reports about state reviews were more
            extensive and contained recommendations for improvements to state programs. In
            a recent Region 5 review, for example, the regional program manager for Illinois
            recommended that the state take immediate action to evaluate and improve
            tracking of how staff time is charged against the federal UST grant. Region 7 also
            made recommendations to improve a state program. The region found that Iowa’s
            UST enforcement actions took up to 4 years to complete and made
            recommendations to improve the timeliness of enforcement cases.

            Each region we reviewed reported taking additional steps to oversee state UST
            inspection programs. For example:

               	 Region 5 UST program managers inspect up to 30 UST sites annually per
                   state to verify that state UST inspection staff conduct quality tank
                   inspections. Ohio’s UST inspection program agreed to increase its training
                   regimen for USTs storing hazardous substances after the regional program
                   manager identified inconsistencies in state inspections for this class of
                   tank.

               	 Region 7 UST program managers conduct state program reviews to
                  determine whether each state has sufficient management controls to ensure
                  that quality inspections are performed. Additionally, Region 7 conducts
                  approximately 60 inspections annually to help states meet the 2005 Energy

12-P-0289                                                                                   3
                   Policy Act requirements and to assist states with bringing recalcitrant
                   owner/operators into compliance using EPA enforcement authority.

               	 Region 8 conducts 5 to 20 joint inspections annually in all its states except
                  Montana. Because Montana uses a third-party inspection program, the
                  region evaluates the state’s oversight activities during its end-of-year
                  review.

            The states in the three regions we examined use a variety of management controls
            to verify the quality of inspections performed by state staff. Examples of these
            controls include:

                  Reviewing inspection reports
                  Conducting joint inspections with staff
                  Conducting follow-up inspections to verify inspection results
                  Analyzing results of a series of individual inspection reports for anomalies
                  Auditing a percentage of contract inspections
                  Conducting annual training and certification

            In our opinion, EPA regions and states have management controls to verify the
            quality of state UST inspections.

            Lack of Up-to-Date MOAs Are a Management Concern for Oversight
            of State UST Inspection Programs

            Despite not finding any problems with EPA oversight of the quality of state UST
            inspections, we have a concern regarding EPA’s oversight of the state inspection
            programs. MOAs between the regions and states either do not exist or are
            outdated. Office of Management and Budget Circular A-123, Management’s
            Responsibility for Internal Control, directs government agencies to operate
            programs using adequate management controls to ensure effective program
            operation. An MOA establishes regional oversight roles and responsibilities for
            state UST programs, including local governments acting on the states’ behalf, and
            are required for states with program approval. However, the MOAs we reviewed
            do not require management controls over the quality of the inspections conducted,
            and have not been updated to incorporate 2005 Energy Policy Act requirements.

            EPA does not have MOAs with 5 of the 16 states we reviewed and has outdated
            MOAs with the other 11 states. While MOAs are not required for states that do
            not have approved UST programs, they are a mechanism to determine
            implementing agency authority. As such, they could serve as a foundation for
            EPA management controls and oversight. Furthermore, for states that have either
            delegated or contracted their inspection responsibilities to local governments, the
            MOA should affirm these arrangements.



12-P-0289                                                                                    4
            OUST reported that 16 states currently either contract out or supplement their
            inspection activities to specific cities or counties. For example, in Illinois, the city
            of Chicago conducts all UST inspections within the city’s limits and submits the
            results to the Office of the State Fire Marshal (OSFM) for review and entry into
            the state database of inspections. This provides the OSFM some oversight of UST
            inspection quality in Chicago. However, because Chicago has authority to
            implement an UST inspection program, an OSFM manager said that he conducts
            fewer on-site spot checks of city inspections when compared to other UST
            inspections in the state. While there is no evidence that inspections conducted in
            Chicago are not thorough, inconsistent statewide oversight of UST inspections is
            a vulnerability to the integrity of a state’s oversight program. In our opinion,
            MOAs between regions and states need to contain language defining roles and
            responsibilities for inspections conducted in the specific delegated or contracted
            city or county. This would ensure that oversight of these municipal inspections is
            the same as in the rest of a state.

            According to a Deputy Director in OUST, the office is drafting a new set of
            regulations pertaining to UST protections. These new regulations will likely
            prompt states to update or request state program approvals and sign new MOAs.

Conclusion

            We believe EPA Regions 5, 7, and 8, and the states we reviewed, have adequate
            management controls over UST inspections. However, the absence of MOAs or
            outdated MOAs between EPA and states is a management control weakness that
            needs to be addressed. In our opinion, EPA and states need to enter into MOAs
            that reflect program changes from the 2005 Energy Policy Act and address
            oversight of municipalities conducting inspections.

Recommendation
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

                1.	 Require EPA and states to enter into MOAs that reflect program changes
                    from the 2005 Energy Policy Act and address oversight of municipalities
                    conducting inspections.

Agency Response and OIG Evaluation
            In its response to the draft report, OSWER agreed with the overall finding and our
            recommendation and we agree that its planned actions meet the intent of the
            recommendation. Because OSWER did not provide a planned completion date for
            the corrective action, we consider the recommendation unresolved.



12-P-0289                                                                                        5
                              Status of Recommendations and
                                Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                             Planned
 Rec.    Page                                                                                               Completion   Claimed    Agreed-To
 No.      No.                         Subject                       Status1        Action Official             Date      Amount      Amount

  1        5         Require EPA and states to enter into MOAs           U    Assistant Administrator for
                     that reflect program changes from the 2005                    Solid Waste and
                     Energy Policy Act and address oversight of                Emergency Response
                     municipalities conducting inspections.




  O = recommendation is open with agreed-to corrective actions pending
  C = recommendation is closed with all agreed-to actions completed
  U = recommendation is unresolved with resolution efforts in progress




12-P-0289                                                                                                                                 6
                                                                                      Appendix A

                  Agency Comments on Draft Report
                        and OIG Responses
                                         December 14, 2011

MEMORANDUM

SUBJECT:       Response to Draft Report: Controls Over State Underground Storage Tank
               Inspection Programs in Three EPA Regions are Generally Effective
               Project No. 2011-0019

FROM:          Mathy Stanislaus
               Assistant Administrator

TO:            Wade Najjum
               Assistant Inspector General for Program Evaluation

Thank you for the opportunity to comment on the draft report entitled “Controls Over State
Underground Storage Tank Inspection Programs in Three EPA Regions are Generally Effective,”
dated November 14, 2011. I am proud of the excellent relationship that the Underground
Storage Tank (UST) program has with the states and am pleased that the quality of this program
was demonstrated in your review. I agree with you that preventing releases through regular tank
inspections and maintenance is key to protecting public health and the environment. With a few
specific exceptions, we are in general agreement with your findings and the recommendation.

Comments on the Draft Report:

In addition to providing specific recommended changes to language to enhance clarity
(attached), there were some broad UST themes for which there appears to be some
misunderstanding. These broad themes are outlined below.

As a general comment, when the Office of Underground Storage Tanks (OUST) provides
information on USTs, program performance measures, etc., the term “state” is understood and
defined to mean the 50 states, the District of Columbia and the five territories. This distinction is
important because, unless defined, most readers do not consider that “state” includes the five
territories and the District of Columbia. We recommend that you define this term at the
beginning of the report to avoid confusion.

States have primary responsibility for implementation of the UST program in their jurisdictions.
This is equally true in states with or without State Program Approval (SPA). In both cases, the
responsible region works with the state for program oversight and provides inspection and
enforcement assistance when needed and requested. Regardless of a state’s approval status, it is
clear who has the responsibility to oversee local governments performing UST inspections. In all


12-P-0289                                                                                        7
cases, if the state contracts or delegates inspections, the state has full responsibility to oversee
these inspections. The Illinois Fire Marshal (the agency responsible for the Illinois UST
program), does provide oversight to Chicago’s inspection activities through the contract
arrangement in place. Because the relationship between Illinois and Chicago appears to have
been misunderstood, we recommend that the associated example be removed and replaced with
the concept that for all states that have either contracted out or supplemented their inspection
responsibilities with a local entity, those relations should be identified in an MOA.

While it is true that MOAs are not required for states that do not have approved UST programs,
they are, however, a mechanism that is used to determine which agency acts as the UST program
implementing agency for that state. 40 CFR Section 280.12 (and similarly, 40 CFR Section
281.12(b)(1)), defines implementing agency as: "EPA, or, in the case of a state with a program
approved under section 9004 (or pursuant to a memorandum of agreement with EPA), the
designated state or local agency responsible for carrying out an approved UST
program." Therefore we believe that all MOAs (those in SPA and non-SPA states) should be
evaluated and updated as necessary.

Regions are active in oversight of their states. The regions keep in regular contact with their
states and have a formal review process to assess state progress and compliance with program
objectives. In terms of formalizing grant conditions and funding outlays, the most active and
primary means the regions ensure the quality and effectiveness of the UST program is through
the grant negotiation process which occurs prior to the issuance of a new grant award to a state.
Prior to awarding any new Subtitle I funding, regions review the state’s progress in achieving
compliance with the mandates of the Energy Policy Act (EPAct), in addition to anticipated future
performance. Through these negotiations, a workplan is developed which outlines the activities
for the state over the upcoming year. While the grant negotiations are relied upon most
significantly to provide program management, we agree there is a role for the MOA as well.

Comments on the Recommendation:

We generally agree with the recommendation to have EPA and states enter into MOAs reflective
of changes from EPAct and addressing oversight of municipalities conducting inspections. We
are currently in the process of updating the UST regulations and recognize that certain proposed
changes to the existing regulations may cause states to amend different aspects of their programs.
As a result, we will ensure this recommendation is implemented concurrently to the process
outlined in the proposed regulations for states to reapply for SPA.

Thank you for providing this draft report for our review. We have worked hard to develop a
program that balances the flexibility needs of the states with appropriate oversight. While the
regions use the grant negotiations process to provide the direct means of oversight, MOAs can
certainly serve a role in that as well. If you have any questions, please contact
Carolyn Hoskinson, Director of the Office of Underground Storage Tanks. She can be reached
at 703-603-9900.




12-P-0289                                                                                         8
                                   Attachment: Specific comments

Proposed language in red/reasoning in italics

Background
Pg. 1, 2nd paragraph: It requires states to inspect UST facilities (e.g., gas stations) at least once every
three years, conduct operator training, obtain delivery prohibition authority, and to either have
secondary containment systems for USTs within 1,000 feet of any existing community water system
or any existing potable drinking water well, or financial responsibility for manufacturers and
installers.

Pg. 1, 2nd paragraph: OUST also supports UST inspection programs by publishing grant guidelines
to help states comply with provisions of the 2005 Energy Policy Act and by issuing semiannual
performance reports. 2
Pg. 1, 3rd paragraph: EPA regions approve states to administer and enforce a state program in lieu of
a federal program under Subtitle I of the Resource Conservation and Recovery Act if those state
programs are at least as stringent or broader in scope than as federal regulations. For a state to be
approved to receive SPA under Subtitle I of the Solid Waste Disposal Act, as amended, those
state programs must be at least as stringent as the federal regulations. The state needs to
regulate at least the same universe of USTs that are federally regulated. The state can, however,
choose to be broader in scope for their individual regulations. We, however, consider those
USTs that are broader in scope to be outside the purview of SPA.

Pg. 1, 3rd paragraph: In states without an approved program, EPA works with state officials in
coordinating UST enforcement actions. Even in states without SPA, states have primary
responsibility for implementing their underground storage tank program.

Pg. 2, 1st paragraph: All states, plus the District of Columbia, determine compliance with UST
regulations through compliance inspections, regardless whether or not there is the state has an
approved program. This statement is true of all states and territories. Suggest defining this
appropriately such that states represent states, territories and the District of Columbia.

Pg. 2, 1st paragraph: EPA regional staff members conduct inspections on tribal lands and, in some
cases, regularly occasionally assist states with compliance inspections.

Pg. 2, 2nd paragraph: States go about conducting inspections in different ways. The majority rely on
state employees only. Some use a combination of state and local government staff, while others
contract-out inspections or supplement their inspections with EPA or EPA contract inspectors. A
small number of states allow UST owners to hire certified third-party contractors to do their
compliance inspections. According to OUST, 33 27 states use state employees; 9 states supplement
state employees with city, county, or municipal employees; 7 states contract-out some or all of the
inspection function; and 7 states use third-party inspection programs. EPA defines a third-party
inspection program as a state program in which state-approved third-party inspectors are paid by the
owner or operator of an underground storage tank to perform an on-site inspection. EPA Guidelines
affirm that the results of these inspections must be reviewed by state UST enforcement personnel to
determine compliance with regulations. Corrected number (33 vs. 27) is based on the definition of
state to include all 50 states, the District of Columbia and the five territories.

12-P-0289                                                                                              9
Pg. 3, top of page: In addition, for states without MOAs it is unclear who has responsibility to
oversee local governments performing UST inspections. In all cases, if the state contracts or
delegates inspections, the state has full responsibility to oversee these inspections. At no time does
EPA have the responsibility to oversee local government USTs. Those states that have 3rd party
programs or otherwise contract or delegate out inspection responsibilities have specific agreements
to do so and the regions are aware of these agreements.

Regional Controls Over State UST Inspection Programs Are Generally Effective
Pg.3, 1st bullet: Ohio’s UST inspection program agreed to increase its training regimen for USTs
storing hazardous substances waste after the regional program manager identified inconsistencies in
state inspections for this class of tanks.

Pg. 3, 2nd bullet: The region also inspects USTs to help the states meet the 2005 Energy Policy Act
requirements and assist with state enforcement work. Additionally, Region 7 conducts
approximately 60 inspections annually to help states meet the EPAct requirements and to assist states
with bringing recalcitrant owner/operators back into compliance using EPA enforcement authority.

Lack of Up-To-Date MOAs Are a Management Concern for Oversight of State UST
Inspection Programs
Pg.4, paragraph 2: EPA does not have MOAs with 5 of the 16 states we reviewed and has
outdated MOAs with the other 11 states. While MOAs are not required for states that do not have
approved UST programs, they are a mechanism to determine implementing agency authority. As
such, they could serve as a foundation for EPA management controls and oversight.
Furthermore, in states that have given either delegated to or contracted with local governments
their inspection responsibilities, the MOA should affirm these arrangements. 16 Sixteen states
currently either contract out or supplement their inspection activities to specific cities or
counties. For example, in Illinois, the city of Chicago conducts all UST inspections within the
city’s limits. However, Illinois officials stated that they have much less oversight of inspections
conducted in Chicago compared with the rest of the state. In our opinion, an MOA between the
region and state Illinois with language defining roles and responsibilities for inspections
conducted in the specific delegated or contracted city or county in Chicago would ensure that
oversight of these municipal inspections is the same as in the rest of the state. It appears that
there may have been a miscommunication regarding Illinois and Chicago. Illinois provides
oversight to Chicago’s inspection activities (as is the case in other similarly delegated or
contracted interactions). Your broader point about MOAs including language regarding who
has specific authority and responsibility for UST program in a specific jurisdiction is well-taken.


 OIG Response: While generally agreeing with our findings, OUST suggested edits to the final
 report. We discussed these with OUST officials and revised the final report accordingly.




12-P-0289                                                                                           10
                                                                            Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Water
Regional Administrator, Region 5
Regional Administrator, Region 7
Regional Administrator, Region 8
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response




12-P-0289                                                                          11
